               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Lease Purchase Options for Postal
             Service Facilities

                       Audit Report




                                         September 18, 2012

Report Number DA-AR-12-002
                                                                 September 18, 2012

                                                        Lease Purchase Options for
                                                           Postal Service Facilities

                                                       Report Number DA-AR-12-002




BACKGROUND
The U.S. Postal Service administers          generate about $936,000 in revenue.
over 24,000 leases, representing             The Postal Service did not always
about $820 million in annual rent. About     perform the required analysis for
2,252 leases have purchase options,          potentially favorable purchase options,
which enable lessees to purchase             which can result in missed opportunities.
leased properties. The Facility Service      Finally, the Postal Service did not
Office is responsible for negotiating,       consider exercising purchase options
executing, and tracking leases and           for leased property occupying less
headquarters decides whether to              than 6,500 square feet (SF). Five
execute the lease purchase option. Our       leases, each for properties of less than
objective was to determine whether or        6,500 SF, contained purchase options of
not the Postal Service is exercising         $1 that, if exercised, would have
lease purchase options that provide          represented about $134,657 in cash
adequate cost benefits to the Postal         savings to the Postal Service.
Service.                                     Reviewing purchase options based on
                                             building size alone could lead to missed
WHAT THE OIG FOUND:                          purchase option opportunities.
While the Postal Service generally
exercised favorable purchase options,        WHAT THE OIG RECOMMENDED:
opportunities exist for improving the        We recommended that management
process. Of the 195 leases reviewed, six     develop an objective methodology to
had options that were economically           quantify and prioritize opportunities for
favorable but were not exercised. By not     favorable purchase option exercises,
exercising these favorable purchase          establish procedures for assigning lease
options, the Postal Service incurred         purchase options to third parties in the
about $1.3 million in additional cash        real estate market, reiterate the
outlays for long-term lease obligations.     importance of performing the required
In addition, management did not use its      analysis on potentially favorable
ability to assign lease purchase options     purchase options, and revise
to third parties in the real estate market   procedures to evaluate lease purchase
to its economic advantage. Twenty-one        options for leases occupying less than
leases, which are scheduled for              6,500 SF.
termination or identified as potential
terminations, have options the Postal        Link to review the entire report.
Service could assign to third parties to
September 18, 2012

MEMORANDUM FOR:            TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Lease Purchase Options for Postal Service
                           Facilities (Report Number DA-AR-12-002)

This report presents the results of our audit of the U.S. Postal Service’s Lease Purchase
Options for Postal Service Facilities (Project Number 11YG038DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Facilities, Environmental and Sustainability, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    Mary Anne Gibbons
    Corporate Audit and Response Management
Lease Purchase Options for                                                                                        DA-AR-12-002
 Postal Service Facilities


                                                   TABLE OF CONTENTS

  Introduction .................................................................................................................. 1

  Conclusion ................................................................................................................... 1

  Favorable Purchase Options Not Exercised ................................................................ 2

  Third-Party Assignment of Lease Purchase Options ................................................... 3

  Purchase Existing Building Analyses Not Performed .................................................. 4

  Purchase Options for Leased Properties of Less Than 6,500 Square Feet ................. 4

  Recommendations....................................................................................................... 5

  Management’s Comments ........................................................................................... 5

  Evaluation of Management’s Comments ..................................................................... 6

  Appendix A: Additional Information .............................................................................. 8

      Background ............................................................................................................. 8

      Objective, Scope, and Methodology........................................................................ 9

      Prior Audit Coverage ............................................................................................. 10

  Appendix B: Leases Subject to Third-Party Assignment ........................................... 11

  Appendix C: Monetary Impacts.................................................................................. 14

  Appendix D: Management’s Comments .................................................................... 15
Lease Purchase Options for                                                                               DA-AR-12-002
 Postal Service Facilities



Introduction

This report presents the results of our audit of the U.S. Postal Service’s lease purchase
option program for Postal Service facilities (Project Number 11YG038DA000). The
objective was to determine whether the Postal Service exercised lease purchase
options that provided adequate cost benefits to the Postal Service. This audit was self-
initiated and addresses financial risks. See Appendix A for additional information about
this audit.

Postal Service Facilities administers over 24,000 leases, representing about
$820 million in annual rent. About 2,252 leases have lease purchase options, 18 of
which the Postal Service exercised in fiscal year (FY) 2011. Each Facilities Service
Office (FSO) has Real Estate specialists on staff who are responsible for negotiating,
executing, and tracking leases. Facilities Headquarters makes the final decision on
whether or not to exercise the lease purchase option based on the information the
Facilities Service Offices provide. The Pacific Area FSO has considered the assignment
of leases1 and purchase options2 as a potential stream of revenue, but has not executed
any assignment to a third party.

Conclusion

While the Postal Service generally exercised favorable purchase options, opportunities
exist for improving the process. Of the 195 leases reviewed, six contained options that
were economically favorable but which the Postal Service did not exercise. In addition,
management did not use its ability to potentially assign lease purchase options to third
parties in the real estate market to its economic advantage. The Postal Service leased
57 properties planned for termination that could generate additional revenue if the
Postal Service assigned the rights to these leases to third parties.

Facilities officials did not perform Purchase Existing Building (PEB) analyses3 on eight
of 195 sampled leases that included potentially favorable purchase options. Finally, the
Postal Service did not consider exercising purchase options for leased properties
occupying less than 6,500 square feet (SF). By not exercising favorable purchase
options, leveraging options via lease assignment, performing required PEB analyses,
and considering leases occupying less than 6,500 SF for option exercise, the Postal
Service missed the economic benefits these lease options may provide.


1
   Lease assignment occurs when the lessee markets the lease and finds a third party to assume it.
2
   Purchase option assignment relates solely to purchasing the option for exercise. In this scenario, the lessee
identifies third parties prior to lease termination and charges the third party an assignment fee for the rights to the
purchase option at the end of the lease. This will allow the third party to assume ownership for the property or resale
it as investment property to a subsequent buyer.
3
   PEB analyses are performed by Real Estate specialists to assist with determining whether leasing or purchasing a
building is in the best financial interest of the Postal Service. These analyses involve 10-year cash flow projections
based on relocation of services, continuance of lease, and exercise of purchase option.
                                                               1
Lease Purchase Options for                                                                            DA-AR-12-002
 Postal Service Facilities


Favorable Purchase Options Not Exercised

While the Postal Service generally exercised favorable purchase options, opportunities
exist to improve the process. Of the 195 leases reviewed, six (or 3 percent) contained
options that were economically favorable but were not exercised. These six options
would have resulted in about $1.3 million in cash savings had officials exercised the
options. We based these cash savings on a 2-year average of a projected 10-year cash
flow comparing purchase option exercise versus lease continuance.

Due to Postal Service Headquarters Finance’s direction, Facilities officials primarily
focused on purchase options with a 2-year payback. Very few lease purchase options
met this requirement. Despite a focus on lease purchase options with a 2-year payback,
we observed the exercise of six purchase options with more than a 2-year payback
during our audit. Management denied three of the six lease options representing
$424,109 in cash savings to the Postal Service because they did not yield a 2-year rent
to option price payback.4 However, these leases were within Facilities’ historical
standard of a 10-year rent to option price payback.5

Facilities Headquarters officials denied the remaining three leases representing
$893,131 in cash savings to the Postal Service due to better opportunities that were not
quantified. These leases were within Facilities’ historical 10-year payback measurement
but did not meet 2-year payback requirements; however, when the new annual rents
were negotiated they did meet the 2-year payback requirement. Furthermore, the new
lease terms do not include purchase options. The following is a detailed explanation of
these three leases:

   Baraboo, WI – A 6,569 SF facility with a purchase option of $80,000 and a current
    market value of $1.2 million. The Postal Service was transitioning from a 40-year
    lease with the expectation of a higher annual rent in future lease terms.
    Subsequently, the Postal Service entered a lease that increased the annual rent
    from $10,894 to $39,954. Based on the new negotiated annual rent, the purchase
    option meets the 2-year payback status required by Finance. The new lease does
    not include a purchase option.

   Stevens Point, WI – A 17,291 SF facility with a purchase option of $200,000 and a
    current market value of $1,660,000. The Postal Service was transitioning from a
    40-year lease set to expire in November 2011. As of December 2011, there was no
    negotiated annual rent in the system because the lessor insisted the Postal Service
    assume all maintenance responsibility. The lessor requested an increase in annual
    rent to $166,226, to include the Postal Service assuming all maintenance. There
    was also an escalation in rent to $185,782 to begin in 2014. The prior annual rent

4
  Two-year payback calculations are performed by multiplying the annual rent by two and comparing that to the option
price. If the option price is less than the 2-year rent calculation, the purchase option exercise is determined to be
potentially favorable and requires further analysis.
5
  Ten-year payback calculations are performed by multiplying the annual rent by 10 and comparing that to the option
price. If the option price is less than the 10-year rent calculation, the purchase option exercise is determined to be
potentially favorable and requires further analysis.

                                                          2
Lease Purchase Options for                                                      DA-AR-12-002
 Postal Service Facilities


    was $17,438. The new annual rent exceeded Finance’s 2-year payback
    requirement. By exercising this favorable purchase option, the Postal Service could
    have avoided the long lease negotiation with the lessor.

   Kirksville, MO – A 9,974 SF facility with a purchase option of $200,000
    and a current market value of $320,000. The Postal Service was transitioning from
    a 50-year lease with an expected current rent in excess of $100,000 a year.

These six option exercise opportunities were missed because there is no financial
measurement or criteria to support why certain option exercises are approved and
others are not. Officials stated they denied the purchase option due to limited capital
funding and greater return on other projects. However, there were no specific criteria to
support why options exercised with more than a 2-year payback were approved and
others were denied. The decision to deny or approve an option exercise at the Facilities
Headquarters level was subjective and focused on one lease at a time instead of taking
into account the economic benefits of all leases subject to exercise in a given fiscal
year. Not exercising favorable purchase options could result in additional cash outlays
for long-term lease obligations.

Third-Party Assignment of Lease Purchase Options

Postal Service officials had opportunities to generate revenue from assigning purchase
options for 57 leases which were subject to termination. Twenty-one of the 57 leases,
which are scheduled for termination or identified as potential terminations, contain
options that could be assigned to third parties to generate revenue, while the remaining
36 leases opportunities ceased because the terminations were cancelled.

The Postal Service did not use its ability to assign purchase options to third parties in
the real estate market to its economic advantage because standard operating
procedures (SOP) did not require Facilities personnel to consider the assignment of
leases or purchase options. However, the Postal Service could create an additional
revenue stream of $986,000 by assigning options of 21 leases identified for termination
to interested third parties. The Postal Service could have generated about $1.4 million
in revenue for the 36 leases that were initially subject to termination and consolidation
efforts. See Appendix B for additional information on leases that potentially qualify for
third-party lease assignment.

There are legal considerations to take into account before assigning purchase options
to third parties. Generally, lease purchase options are assignable without the consent of
the lessor; however, there are two possible limitations on assignment of a lease
purchase option. First, a provision of the contract might explicitly prohibit assignment, or
require the lessor to consent to any assignment. Second, many state statutes permit
lessees to assign option contracts; however, at least one state (Texas) prohibits the
assignment of leases without the lessor’s approval. Three of the 57 leases reviewed




                                             3
Lease Purchase Options for                                                      DA-AR-12-002
 Postal Service Facilities


related to properties in Texas. Because the provisions of each lease purchase option
will vary by state, the Postal Service must avoid assigning a lease purchase option
when they are prohibited from doing so, or prohibited from doing so without the lessor’s
consent.

Purchase Existing Building Analyses Not Performed

Facilities officials did not perform PEB analysis on eight of 195 leases reviewed that
included potentially favorable purchase options. SOP require Real Estate specialists to
perform an analysis to determine the viability of purchase option exercises. In six of the
eight leases, Facilities personnel indicated that PEB analyses were not performed due
to future opportunities to exercise options. In two of the eight leases, exercise
opportunities were missed and the new leases no longer have a purchase option. We
determined these leases had favorable options by performing the preliminary 10-year
payback analysis as well as the cash flow analysis typically performed by the Real
Estate specialists. These leases in total represent a potential $252,889 in cash savings
to the Postal Service if the options were exercised. Not performing required PEB
analysis for favorable purchase options results in missed opportunities for exercising
purchase options and negative cash flow corresponding to long-term lease obligations
in subsequent years.

Purchase Options for Leased Properties of Less Than 6,500 Square Feet

Leased properties of less than 6,500 SF were not considered for option exercise, even
when the options were economically favorable to the Postal Service. SOP did not
require the Postal Service to review or perform an analysis for leased properties of less
than 6,500 SF. Facilities officials asserted that there was minimal cost benefit related to
the option exercise of these leases. However, as a best practice, the Great Lakes Area
FSO reviewed purchase options for leased properties of less than 6,500 SF. Facilities
officials approved an option submitted by the Great Lakes FSO for a 2,002 SF facility in
Blanchardville, WI, with a purchase option of $1 and a current market value of
$215,000. The exercise of the purchase option resulted in a positive cash flow to the
Postal Service of $357,037.

Five leases reviewed, each for properties of less than 6,500 SF, contained purchase
options of $1 that, if exercised, would have represented about $134,657 in cash savings
to the Postal Service. Not reviewing purchase options based on building size alone
could lead to missed purchase option exercise opportunities.




                                             4
Lease Purchase Options for                                                     DA-AR-12-002
 Postal Service Facilities


Recommendations

We recommend the vice president, Facilities:

1. Develop an objective methodology to quantify and prioritize opportunities for
   favorable purchase option exercises.

2. Establish procedures for assigning lease purchase options to third parties in the real
   estate market.

3. Reiterate the importance of performing the required analysis on potentially favorable
   purchase options despite future opportunities to exercise.

4. Revise procedures to evaluate lease purchase options for leases occupying less
   than 6,500 square feet.

Management’s Comments

Management generally agreed with all the recommendations but disagreed with the
analysis related to the economic benefits the Postal Service lost by failing to exercise or
assign purchase options and disagreed with the associated monetary impact.
Management stated that we oversimplified the analysis required before exercising a
purchase option by failing to consider the facility and property condition.

Regarding recommendation 1, management agreed to clarify the methodology used to
quantify and prioritize favorable purchase options, which includes a reasonable timeline
for completing each step, by October 31, 2012. For recommendation 2, management
agreed to update procedures by December 31, 2012. For recommendations 3 and 4,
management agreed to send a memorandum to Facilities staff to reiterate the
importance of performing required analysis of all purchase options, regardless of facility
size, by September 30, 2012.

Management agreed that $424,109 and $893,131 represent opportunities that could
have been captured if the Postal Service had the capital available to exercise favorable
purchase options. However, in response to ongoing financial challenges, Finance has
implemented a revised payback requirement equal to 2 years. This, coupled with other
factors, were the basis for declining these purchase options.

Management disagreed with $986,000 in additional revenue that could have been
generated by assigning 21 leases with purchase options to third parties whereby the
Postal Service intends to terminate such leases. Additionally, management disagreed
that $1,456.509 in revenue was lost based on 36 leases no longer having assignment
opportunities due to the cancellation of the termination. Management stated that,
without the Postal Service as a tenant generating cash flow, the value an investor would
be willing to pay is significantly reduced.



                                             5
Lease Purchase Options for                                                      DA-AR-12-002
 Postal Service Facilities


Management disagreed with the assumption that the Postal Service could earn an
assignment fee equal to a percentage of the purchase option fee. Management stated
that the correct analysis would assume that if there were interested parties, the option
would be sold competitively on the open market based on the arbitrage that could be
created between the market value of the property and the purchase option fee.
Management did acknowledge the current lack of a formal procedure for assignment of
purchase options.

Lastly, management stated that we assumed that for every property for which the Postal
Service did not exercise the option, there was a market for assigning the option. They
stated that the commercial real estate market has been relatively flat and the length of
time that a property is on the market has increased in most areas. As such, assuming
that every purchase option is readily or easily assignable is tenuous. See Appendix D
for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

In response to management’s statement that we failed to consider facility and property
conditions and other factors in our analysis of favorable options, we used Facilities’ staff
present value calculations as well as market valuations to determine monetary impacts.
Our calculations agreed without exception to the Facilities lease files reviewed and
there were no significant facility condition or maintenance issues noted in the files.

Management opposed the third-party assignment of lease purchase options. They
stated that, without the Postal Service as a tenant generating cash flow, the value of the
property would be borne by the investor. Our analysis took into consideration the fact
that the Postal Service would no longer have tenancy at the property and assumed
investors would purchase the property based on their ability to identify tenants that
would pay rent no less than the current Postal Service rate. The rent estimate is
conservative because most Postal Service long-term lease agreements are below fair
market value. We performed net present value calculations with conservative rates of
return as low as 1 percent for real estate and investor rates of return. Based on these
assumptions, 57 of 1,538 leases resulted in a positive investor cash flow. We did not
consider an investor’s ability to obtain the property and sell as opposed to leasing,
which would have yielded significantly higher results, due to the complexities of this type
of analysis. This further supports our conservative approach to identifying investor
opportunities and our efforts not to oversimplify the nature of this transaction.

Management also disagreed that the Postal Service could earn an assignment fee
equal to a percentage of the purchase option fee. Our research on the lease
assignment process noted examples of lease assignment and commissions or fees
corresponding to these transactions. We do agree that lease assignment based on a


                                             6
Lease Purchase Options for                                                      DA-AR-12-002
 Postal Service Facilities


percentage of the option price is not the only way to increase revenue; however, it
represents our most conservative estimate. For example, estimates associated with fair
market values would yield greater results and be more difficult to quantify given real
estate market trends.

Management further stated that we assumed that for every property for which the Postal
Service did not exercise the option, there was a market for assigning the option. The
intent of the audit was to identify third-party lease assignment opportunities to assist the
Postal Service with its revenue-generating efforts. We considered the legality of the
assignment of lease purchase options and eliminated leases in Texas where we noted
specific restrictions. We do, however, agree that there may be some difficulty assigning
all of the lease purchase options we identified.

The OIG considers recommendations 1 through 3 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                             7
Lease Purchase Options for                                                                              DA-AR-12-002
 Postal Service Facilities


                                 Appendix A: Additional Information

Background

Postal Service Facilities officials administer over 24,000 leases representing about
$820 million in annual rent. Each FSO has Real Estate specialists who are responsible
for negotiating, executing, and tracking leases. The Postal Service has about 2,252
leases with purchase options recorded in the electronic Facilities Management System
(eFMS). With regard to lease purchase options, the FSO performs lease versus buy
analyses to determine the cost benefit of either renewing a lease or purchasing the
existing building.

On June 11, 2010, Facilities officials implemented SOP to assist in tracking and
executing lease purchase options. The procedures require the review of all leases for
properties larger than 6,500 SF and exercisable within 18 months, as a result. Leases
for properties of less than 6,500 SF do not require a purchase option review. Prior to
implementing SOP, specialists did not perform a detailed review of purchase options
and were more focused on lease renewals resulting in the continuance of annual rent.

The lease purchase option process consists of a specialist verifying future facility
requirements and determining the condition of the structure. The postal operations
analyst prepares a preliminary lease versus buy analysis to determine whether the
purchase of the facility would be beneficial to the Postal Service. If the preliminary
analysis indicates the purchase would be advantageous, the specialist conducts the
required due diligence, including submittal of an environmental and intergovernmental
notice.6

The specialist may obtain an appraisal of the property to determine its value and, after
gathering the final cost information (offer price, maintenance expenses, and leased fee
value), the analyst, with input furnished by the specialist, makes a lease versus buy
determination. If the determination is favorable, a recommendation to purchase the
existing building is submitted to headquarters for review and then to the Funds
Investment Committee (FIC)7 for approval. The purchase option exercise can be denied
at the headquarters level prior to submission to the FIC. Upon FIC approval, the
property is recorded as an owned facility in the database and the old leased property
record is terminated.




6
  Real Estate specialists conduct due diligence by submitting a request for an appraisal of a property and performing
a detailed financial analysis related to the benefits of leasing versus buying. Due diligence also requires an
environmental review that involves the determination of any potential hazards that may preclude the Postal Service
from purchasing the property. During due diligence local government agencies are notified of the Postal Service’s
intent to purchase the property. The cost of due diligence is roughly $20,000 per lease.
7
  Postal Service approving officials may select one or more of the following types of review committees to review a
capital purchase: work group, functional review team, FIC, or performance cluster. Facilities officials use the FIC to
review capital projects and, after review, the FIC recommends whether or not the project should be approved.



                                                           8
Lease Purchase Options for                                                                         DA-AR-12-002
 Postal Service Facilities



Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service exercised lease purchase
options that provided an adequate cost benefit to the Postal Service. To accomplish our
objective we:

   Identified and reviewed 195 leases subject to exercise 18 months past their
    termination dates and 18 months before their termination dates to determine
    whether favorable lease purchase options were identified and exercised according to
    SOP. Procedures require review of all lease options at facilities occupying more than
    6,500 SF and exercisable within 18 months. These leases represent annual rents of
    $19,064,463 and purchase options of $219,051,701.

   Identified 2,252 leases with purchase options in eFMS. About 1,538 of these leases
    contained options that could be exercised in the next 5 years. These leases
    represent cumulative annual rents of $13,747,047 and purchase options of
    $790,592,810. We reviewed all leases exercisable within 5 years to determine
    whether the leases were potential third-party assignment opportunities.

   Identified 1,051 leases representing $437 million in purchase options and $39 million
    in annual rent for properties of less than 6,500 SF. Based on the Great Lakes
    best practice of reviewing these leases we reviewed all purchase options less than
    6,500 SF with purchase options of $1 for potential cash savings.


   Reviewed scanned copies of original leases and purchase option details recorded in
    eFMS to determine whether the Postal Service was adhering to its policies and
    procedures. We used Postal Service criteria to support our conclusions.8

   Interviewed Postal Service personnel to gain further understanding of the lease
    purchase option process. In addition, we performed on-site reviews of 103 leases at
    Postal Service facilities. We conducted interviews and lease reviews at the following
    locations:

    o Facilities Headquarters, Washington, D.C. (48 leases reviewed — 32 in the
      Western Facility Service Office and 16 in the Pacific Facility Service Office).

    o Southern FSO, Dallas, TX (23 leases reviewed).

    o Great Lakes FSO, Bloomingdale, IL (32 leases reviewed).

8
 The following Postal Service criteria was used to support our conclusions: Handbook RE-1, U.S. Postal Service
Facilities Guide to Real Property Acquisitions and Related Services; Handbook F-66 Series, General Investment
Policies and Procedures and Interim Purchase Existing Building Standard Operating Procedures (June 11, 2010).




                                                        9
Lease Purchase Options for                                                                           DA-AR-12-002
 Postal Service Facilities


    o Eastern and Northeast FSOs (92 leases reviewed via desk audit and email
      correspondence).
   Reviewed PEB analysis and other supporting documentation to determine the cost
    effectiveness of Postal Service lease purchase options and related purchase
    decisions. We further identified best practices within Postal Service FSOs as well as
    industry-wide applicable to real estate purchase option exercises.
We conducted this performance audit from July 2011 through September 20129 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on July 24 and 31, 2012, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by running a query of lease
purchase options and comparing the results of our query to data in Facilities’ databases.
We reviewed discrepancies and determined they were a result of timing differences
related to the date the reports were generated. There were no significant deviations
between our report and data from the Facilities’ databases. In addition, we compared
information related to purchase options to the scanned leased documentation in the
eFMS. We determined that the data was sufficiently reliable for the purposes of this
report.

Prior Audit Coverage

Our report titled The Postal Service Lease Process (Report Number SA-AR-09-006,
dated September 29, 2009) concluded that the Postal Service could enhance
procedures for ensuring that leases are more economically beneficial by improving
internal controls related to lease processing. Facilities personnel adhered to established
policies and procedures; however, FSOs could improve internal controls with regard to
termination language, cost and income analyses, negotiations with national lessors, and
leases under $25,000. Management partially agreed with our recommendation related
to termination clauses and agreed to the remaining recommendations in their entirety.




9
 The milestones for this audit were increased from 9 to 12 months due to an increase in the scope of the audit
corresponding to our findings for leased properties occupying less than 6,500 SF and third-party option assignments.
Additional audit work to support these findings required analysis and review of an additional 2,589 leases.

                                                         10
Lease Purchase Options for                                                                           DA-AR-12-002
 Postal Service Facilities



                  Appendix B: Leases Subject to Third-Party Assignment

We based potential revenue estimates on the assignment fees of 2 and 4 percent in the
contractual agreement between the Postal Service and CB Richard Ellis (CBRE) 10. Our
estimate did not account for individual real estate market trends; therefore, we were
conservative by not using estimated fair market values and perceived buyer benefits
such as location and other selling points that cannot be easily quantified. Table 1 and
Table 2 illustrate the monetary impact of 21 leases that are viable assignment
opportunities and 36 leases that no longer represent assignment opportunities.




10
   Commission rates per the CBRE contract for disposition of property is 4 percent. We used a conservative estimate
of 2 percent for Level III leases with annual rents greater than $500,000 because the fixed purchase option prices
were significantly higher for these leases. The 2 percent rate is the standard CBRE uses to negotiate leases on
behalf of the Postal Service.

                                                        11
Lease Purchase Options for                                                                               DA-AR-12-002
 Postal Service Facilities



                Table 1. Potential Additional Revenue Stream for 21 Leases

                                                     Purchase Option               Assignment           Assignment
 Post Office Name            Option Rent                 Amount                      Rate11                 Fee
Algona                              $9,400                  $125,000.00                     4%                $5,000
Atlanta                           $436,800                   $5,300,000                     4%               212,000
Ballwin                           $109,590                $1,400,000.00                     4%                56,000
Bellevue                           $34,250                     $300,000                     4%                12,000
Boston                             $32,000                  $125,000.00                     4%                 5,000
Brooklyn                          $394,200                $4,891,153.00                     4%               195,646
Burlington                         $40,872                  $550,000.00                     4%                22,000
Chapel Hill                        $44,261                  $600,000.00                     4%                24,000
Detroit                            $50,700                    $450,000                      4%                18,000
(Northwestern
Station)
Detroit (Harper                     $198,000                    $1,820,000                      4%              72,800
Station)
Dothan                             $51,521           $303,811.00                                4%             12,152
Eau Claire                         $42,840             $350,000                                 4%             14,000
Everett                            $56,700             $775,000                                 4%             31,000
Fort Madison                       $27,500           $225,000.00                                4%              9,000
Glen Carbon                        $70,000           $520,000.00                                4%             20,800
Haddam                             $46,309           $490,000.00                                4%             19,600
Lanark                             $10,554           $140,000.00                                4%              5,600
Maryville                          $18,024           $205,000.00                                4%              8,200
Miles                               $6,600            $49,000.00                                4%              1,960
New York                         $819,450         $12,000,000.00                                2%            240,000
Osco                                $6,300            $50,000.00                                4%              2,000
Total                       Potential Revenue Stream                                                         $986,759




11
  The assignment rate is the percentage the Postal Service would charge the third party for the rights to the lease
and purchase options. The rates per the table are applied as follows: Level I and II leases - 4 percent; and Level III
leases - 2 percent.

                                                           12
Lease Purchase Options for                                                          DA-AR-12-002
 Postal Service Facilities


         Table 2. 36 Leases No Longer Representing Assignment Opportunities

                                         Purchase Option              Assignment    Assignment
 Post Office Name       Option Rent          Amount                      Rate           Fee
Brayton                       $8,639              $55,000.00                   4%         $2,200
Cainsville                    $10,903                   $98,762.00            4%           3,950
Candler                      $127,414                     $950,000            4%          38,000
Collinsville                  $13,750                     $180,000            4%           7,200
Columbus                     $600,000                 $8,000,000.00           2%         160,000
Commerce                      $32,338                     $350,000            4%          14,000
Debary                        $88,660                 $1,000,000.00           4%          40,000
Effingham                     $26,027                  $185,866.00            4%           7,435
Ellensburg                    $20,850                  $200,000.00            4%           8,000
Escanaba                      $35,989                  $380,000.00            4%          15,200
Farmville                     $10,000                  $100,000.00            4%           4,000
Fayetteville                 $123,705                   $1,340,000            4%          53,600
Franklin                      $37,000                  $230,000.00            4%           9,200
Huntsville                   $256,874                   $2,650,000            4%         106,000
Johnson City                 $157,870                 $1,600,000.00           4%          64,000
Lawrence                      $57,300                  $650,000.00            4%          26,000
Lithia Springs               $181,342                 $1,500,000.00           4%          60,000
Lowell                        $92,000                   $1,130,000            4%          45,200
McLeansville                  $46,770                  $607,770.00            4%          24,311
Metairie                      $17,953                     $230,000            4%           9,200
Milwaukee                     $45,000                     $450,000            4%          18,000
Muncie                        $45,000                  $450,000.00            4%          18,000
Mystic                         $6,889                   $89,603.00            4%           3,584
Newport                      $138,600                 $1,440,000.00           4%          57,600
Osceola                       $17,000                     $200,000            4%           8,000
Ridgeley                      $11,230                  $117,791.00            4%           4,712
Riverdale                    $209,304                 $2,900,000.00           4%         116,000
Rocky Mountain               $232,236                   $2,554,560            4%         102,182
Russellville                 $100,000                     $850,000            4%          34,000
Sandersville                  $10,870                     $100,000            4%           4,000
Smithfield                    $17,676                     $240,000            4%           9,600
San Juan                     $300,000                   $4,000,000            4%         160,000
Talco                         $28,200                  $285,000.00            4%          11,400
Trion                         $80,904                  $939,000.00            4%          37,560
Waco                         $333,819                 $3,500,000.00           4%         140,000
Wyckoff                      $224,500                  $859,375.00            4%          34,375
Total                 Potential Revenue Stream                                        $1,456,509


                                                 13
 Lease Purchase Options for                                                                                DA-AR-12-002
  Postal Service Facilities



                                       Appendix C: Monetary Impacts

                                                                                                             OIG
                                                                                  10-Year Cash            Reporting
                                                                                    Savings              Requirement
                                                                                  Calculation12          2-Year Cash
                                                                                  10-Year Cash             Savings
Recommendation                            Impact Category                             Flow                Maximum13

           1                Unrecoverable Questioned Costs14                           $6,586,201            $1,317,240

           2                Recoverable Revenue Loss15                                    986,759                986,759
           2                Unrecoverable Revenue Loss16                                1,456,509              1,456,509

           3                Unrecoverable Questioned Costs                              1,264,446                 252,889


           4                Unrecoverable Questioned Costs                                 673,286                134,657

Total                                                                                $10,967,201             $4,148,054




 12
    Initially, we calculated cash flow projections over a 10-year period beginning in FY 2012 and ending in FY 2021.
 13
    Cash flow savings are based on a 2-year average over a 10-year cash flow period in compliance with the OIG
 policy of maximum monetary impact projections with the exception of the finding related to third party lease
 assignment that was not projected based on cash flow savings.
 14
    Unrecoverable questioned costs are questioned as unnecessary, unreasonable, or unsupported due to an alleged
 violation of law, regulation, or contract or not properly supported. Questioned costs can include lease payments which
 were generally in excess of market levels in the economy. This finding corresponds to lease payments since the
 exercise of purchase options would have avoided additional lease payments. It is determined unrecoverable because
 the action needed to be taken within a predetermined period of time.
 15
    Revenue loss relates to revenue not realized due to policies, procedures, agreements or requirements that were
 lacking or not followed. Twenty-one of 57 leases are considered recoverable because they relate to leases currently
 subject to termination or potential termination due to active Postal Service consolidation efforts and can be assigned
 to third parties in the real estate market.
 16
    Thirty-six of 57 leases are considered unrecoverable revenue loss because they no longer represent leases subject
 to termination or active Postal Service consolidation efforts and, as a result, can no longer be assigned to third parties
 in the real estate market.

                                                            14
Lease Purchase Options for                                       DA-AR-12-002
 Postal Service Facilities


                             Appendix D: Management’s Comments




                                            15
Lease Purchase Options for        DA-AR-12-002
 Postal Service Facilities




                             16
Lease Purchase Options for        DA-AR-12-002
 Postal Service Facilities




                             17
Lease Purchase Options for        DA-AR-12-002
 Postal Service Facilities




                             18
